No. 19-1035
IN THE

Supreme Court of the United States
SHARON D. ROSE,
v.

Petitioner,

SELECT PORTFOLIO SERVICING, INC., et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Brian T. Burgess, counsel of
record and a member of the Bar of this Court, certify this 4th day of June 2020 that
respondents’ Brief in Opposition contains 7,119 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

June 4, 2020

Brian T. Burgess
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
Counsel for Respondent
Select Portfolio Servicing, Inc.

